IN THE
SUPREME COURT OF THE UNITED STATES

FAIZAH DEAN - PETITIONER

VS.
WORKERS COMPENSATION APPEALS BOARD
SOUTHERN CALIFORNIA EDISON - RESPONDENT(S)

PROOF OF SERVICE

I, Linda J. Dean, do swear or declare that on this date, March 13, 2021, as required
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS AND PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.

The names and addresses of those served are as follows:

Workers Compensation Appeals Board 455 Golden Gate Avenue, 9th Floor, San
Francisco, CA 94102
Karlzen Hutchenson Inc. for Southern California Edison 3655 Torrance Blvd. Ste. 240
Torrance, CA 905034001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 13, 2021

(Signature)

12

IN THE
SUPREME COURT OF THE UNITED STATES

FAIZAH DEAN - PETITIONER
VS.
WORKERS COMPENSATION APPEALS BOARD
SOUTHERN CALIFORNIA EDISON - RESPONDENT(S)

PROOF OF SERVICE

I, Linda J. Dean, do swear or declare that on this date, March 27, 2021, as required
by Supreme Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery within
3 calendar days.

The names and addresses of those served are as follows:

Workers Compensation Appeals Board 455 Golden Gate Avenue, 9th Floor, San
Francisco, CA 94102
Peter J. Karlzen for Southern California Edison 4001 Inglewood Blvd Bldg 1 Suite 303
Redondo Beach, CA 90278
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 27, 2021

\/J :
----------------- *■

T
(Signature)

12

